NO.__________
IN THE
SUPREME COURT OF THE UNITED STATES
TYQUEZ URSERY
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CERTIFICATE OF SERVICE

I hereby certify that an original and one copy of the foregoing Motion for
Leave to Proceed In Forma Pauperis, Petition for Writ of Certiorari, and Appendix
have been mailed, via Federal Express, to Mr. Scott Harris, Clerk, Supreme Court
of the United States, One First Street, NE, Room 22, Washington, D.C. 20543 on
this the 3rd day of May, 2021, with copies to the following:
Mr. Rascoe S. Dean, Assistant U.S. Attorney, 110 Ninth Avenue South, Suite
A961, Nashville, TN 37203; and
Elizabeth Prelogar, (Acting) Solicitor General of the United States, Room
5614, Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, DC
20530-0001.

s/ Caryll Alpert
CARYLL ALPERT (BPR #17021)
Office of the Federal Public Defender
Middle District of Tennessee
810 Broadway, Suite 200
Nashville, Tennessee 37203
(615) 736-5047
27

